Memorandum from the Office of the Inspector General



August 28, 2007

Bridgette K. Ellis, WT 11B-K
Janet C. Herrin, WT 10D-K

FINAL REPORT – INSPECTION 2007-509I – REVIEW OF TRUST FUNDS ADMINISTERED
BY RIVER OPERATIONS AND THE OFFICE OF ENVIRONMENT AND RESEARCH



Attached is the subject final report for your review and action. As discussed with you and
your staff on July 31, 2007, the subject report is being issued in presentation format. Your
informal comments to the draft report have been incorporated in the final report. Please
advise us of your planned actions in response to our findings within 60 days of the date of
this report.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Rick C. Underwood, Project Manager, at
(423) 751-3108 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 751-7821. We appreciate the courtesy and cooperation received from your staff during
this review.




Ben R. Wagner
Deputy Inspector General
ET 3C-K

GCJ:BKA
Attachment
cc (Attachment):
     Buff L. Crosby, LP 5U-C
     Tom D. Kilgore, WT 7B-K
     William R. McCollum, Jr., LP 6A-C
     Richard W. Moore, ET 4C-K
     Emily J. Reynolds, OCP 1L-NST
     OIG File No. 2007-509I
Review of Trust Funds Administered by
       River Operations and the
 Office of Environment and Research

             2007-509I
           August 28, 2007
Summary of Findings


    Our review of trust funds administered by River Operations (RO) and
    the Office of Environment and Research (OE&R) found:
     –   No policies or procedures applicable to the creation or administration of
         trust funds existed; and
     –   The majority of the trust funds were basically inactive; trust funds were
         established with appropriated funding; and the trust funds received
         limited oversight.


         TVA management provided informal comments on a draft of this report
         and generally agreed with our findings and recommendations. Where
         appropriate, we clarified the report and/or included management’s
         comments.




                                                                                     2
Background

      River System Operations & Environment (RSO&E) was restructured
       in May 2007 and split into RO and OE&R. RSO&E had
       responsibility for providing environmental leadership for TVA.
       RSO&E also had agency-wide responsibility for conducting research
       and technology development to decrease costs, improve power
       system performance, and reduce the impacts of TVA’s operations on
       the environment.
        – The responsibility of RO includes managing the Tennessee River and its
          tributaries as an integrated, balanced, and efficient system. According to
          the RO website, “We continually look for ways to increase the benefits
          the river provides to the Valley’s people today, while protecting and
          improving its condition for future generations.”
        – Based on information obtained in Audit 2007-005F, Identification of TVA‘s
          Cash Accounts, we initiated a review of trust funds identified as being
          administered by RSO&E.
        – Based on information obtained from Chief Financial Officer (CFO)
          personnel, RSO&E was responsible for 11 trust funds. Of these, 10 had
          balances totaling approximately $3.4 million as of January 2007. Since
          the reorganizations of RSO&E in May 2007, the responsibility for these
          various funds has fallen to RO and OE&R.
                                                                                   3
Background (continued)
    The activity on each of the trust funds from October 1, 2005, through January 2007 was as
    follows:
        TVA                                                                                                                   January
      Contract                                                                                                                 2007
        No.                            Fund Name                                   Receipt               Disbursements        Balance
      TV-89981V       Tombigbee River Valley Water Mgt. Dist.                        $838.44                   $838.44         $187,167.44

      TV-90762V       Lamar County, Alabama                                          $68.68                     $68.68          $15,331.37

     TV-92228V        City of East Ridge (Per the Sr. VP RO, they are in
                      the process of closing this trust fund.)                      $1,088.06                 $1,088.06        $242,894.55

     TV-92179V        Belle Mina Water Harvesting Project-Auburn                     $141.66                  $21,195.50         $8,044.19

     TV-92230V        Spring City, Tennessee
     /99997581                                                                      $1,941.61                 $6,007.18        $429,230.59

     TV-40534A        Town of St. Paul, Virginia (Per the Sr. VP RO, this
                      trust fund has recently been closed.)                          $500.02                  $1,427.86        $110,676.72

     TV-75181A        Beech River Watershed Development                               $0.00                      $0.00           $4,583.80

     TV-62000A        Northeast Mississippi Area Development Fund
                      A&B                                                        $1,010,983.72                $2,544.10       $1,438,169.12

     TV-79231T        University of Alabama in Huntsville (Energy
                      Sourcebook)                                                     $0.00                    $349.51         $134,818.55

     TV-63501A        Ocoee River/State of Tennessee                                  $0.00                   $81,378.44       $779,596.86

     TV-79233T1       Upper East Tennessee Education Co-op                           $13.73                   $43,981.61             $0.00

                                                                     Total       $1,015,575.92               $158,879.38      $3,350,513.19
    1 Per trust fund program manager, this trust fund has been rolled into the John-Judy Educational Consortium fund and is
     no longer maintained as a separate TVA trust fund.
                                                                                                                                         4
Background (continued)


       Each of the trust funds is unique in purpose and provisions. Noted
        purposes included:
         – Cooperating in a project to design, construct, and operate a water
           harvesting project on University-owned lands in the Tennessee Valley.
         – Providing for recreational releases from Ocoee No. 2 Dam and for the
           development, operation, and maintenance of a whitewater recreation
           area on the Ocoee River in Polk County, Tennessee.
         – Developing and implementing a flood damage reduction plan.
       Per trust fund program managers, the trust funds were established
        with appropriated funding.




                                                                                   5
Objective and Scope


    Objective
       The objective of our review was to determine whether the trust funds are
        being administered in accordance with the terms of the agreements and
        applicable laws and regulations.
    Scope
       Our scope included all trust funds with balances or activity from October 2005
        through January 2007 that were identified as being administered by RO or
        OE&R.




                                                                                     6
Methodology


    To achieve our objective, we:
       Interviewed key personnel to identify any policies, procedures, laws, and
        regulations applicable to the creation and administration of trust funds.
       Obtained and reviewed the agreement for each trust fund to determine
        (1) the purpose of the trust; (2) fund provisions, including specific laws and
        regulations that may apply to each fund; and (3) how the funds can be used.
       Reviewed information provided by CFO personnel and trust agreements to
        determine (1) the current number of trust funds administered by RO and
        O&ER; (2) the TVA amount approved for each trust fund; (3) the current
        balance of each trust fund; (4) activity in each trust fund from October 1,
        2005, through January 2007; and (5) whether the trust funds were funded
        with appropriated dollars.




                                                                                         7
Methodology (continued)


        Judgmentally selected 3 of the 11 trust funds based on receipt and
        disbursement activity during the period under review; and a fourth at
        the request of the trust fund program manager. For these four, we
        reviewed supporting documentation including invoices, work plans,
        and budgets to determine whether disbursements were made in
        accordance with fund provisions.
            We also interviewed trust fund program managers to ascertain information on all
             of the seven remaining trust funds including purpose, use, and status.


        This inspection was conducted in accordance with the “Quality Standards for Inspections.”




                                                                                                    8
Finding 1 –Policies and Procedures

     Our review found no TVA policies or procedures governing the
     creation or administration of trust funds. The trust fund managers and
     other RO and OE&R personnel confirmed our assessment. In
     addition:
     – There are no requirements for monitoring the use of funds to ensure
       expenditures are appropriate.

     – One contract manager suggested agency guidance on how to administer
       the trust fund would be helpful.

     When this finding was discussed with the Senior Vice President, OE&R, and
     the Senior Vice President, RO, they stated that before developing
     administration and/or monitoring guidelines, the purpose and continued need
     for each trust fund should be evaluated. Appropriate guidelines can then be
     implemented for the remaining trusts. We agree with this suggested action.




                                                                                   9
Finding 2 – Usage and Monitoring


     In summary, based on our review of the 11 trust agreements, interviews
     with TVA program managers for all 11 trusts, and review of other
     supporting documentation, it appears that:
      –   The majority of the trust funds were basically inactive.

      –   The funds were established with appropriated funding.

      –   The funds were receiving limited oversight. However, the level of TVA
          monitoring that can be performed is dictated by each agreement and varies.
              In response to our finding that the level of TVA monitoring that can be
               performed is dictated by each agreement and varies, TVA management
               stated, “We agree with this statement and were pleased that the limitations
               provided by the Contract's trust agreements were recognized and noted. TVA
               served as a conduit to hold the funds and implement the projects. In some
               projects, other government entities, financial institutions, and trustees held these
               responsibilities.”



                                                                                                10
Finding 2 – Usage and Monitoring (continued)

     Our review of bank statements, invoices, travel vouchers, budgets, and work
     plans for four judgmentally selected trusts found the following:
     Trust Agreement 1

     Our review of supplied documentation for expenses reimbursed under this agreement for the
     period under review noted that the program manager was receiving, reviewing, and approving
     invoices from the partner institution. The majority of documentation reviewed was for
     reimbursement of travel expenses for trips between Auburn, Alabama, and Belle Mina,
     Alabama. These consisted mainly of mileage and subsistence related expenses and
     appeared appropriate.

     However, during our review we identified instances of relatively high expenses reimbursed
     without oversight. These items included:
     – A three-night hotel stay in Tampa, Florida, for approximately $269.00 per night and two invoices for
       $1,457.45 and $2,018.45 for the use of a private plane.
         The U.S. General Services Administration (GSA) per diem rate for this area in the year of the
           expenditure was $93.00 per night.
        TVA Accounting Practice 15 states that “the actual expense reimbursement for subsistence expenses cannot
         exceed the maximum amounts authorized by the supervisor and in no event can it exceed 150 percent of the
         applicable standard or locality rate as established by the General Services Administration.” In this case, 150
         percent of the GSA locality rate is $139.50.

                                                                                                                     11
Finding 2 – Usage and Monitoring (continued)

    At our request, the program manager contacted the educational institution
    partner and obtained the following explanation:
      –     “Hotel expenses at Hampton Inn @ $78.30 per night and at Wyndam Harbour Island
            Hotel @ $269 per night: PI2 drove from Auburn to Tampa for the 25th Annual
            International Irrigation Show dated 11/11/04 -11/17/04. The PI left Auburn at 5:00
            p.m., drove to Perry, Florida, spent the night at the Hampton, then drove the
            remaining portion the next morning. The Wyndham Hotel was among the block of
            hotels set aside for the show.
      –     Air travel was used to maximize work time by faculty members on campus and at
            Bella Mina on Oct 25th. Review of work at the Bella Mina site required a full 8 hours
            and would have required them to leave at 4 a.m. and returning [SIC] at 10 p.m.
            Teaching and other commitments by two of the members required them to be on
            campus October 24th and October 26th. The decision to use Rushton Air was
            because the University plane was unavailable on that day, and the cost of the flight
            was approximately $500 less than the University plane.
      –     Supporting documentation is not currently available, but PI feels the circumstances
            were the same as the flight taken on 10/25/05.”


     2 PI
        is a term used to refer to the Principle Investigator. Per the program manager, the PI is the lead on basically all
      aspects of the project from conception to design and installation to operations and maintenance to project closure.



                                                                                                                              12
Finding 2 – Usage and Monitoring (continued)

     Trust Agreement 2
     We found that under the terms of the agreement, TVA did not have the
     authority to approve individual expenditures but was given approval authority
     over the annual budget and any modifications. Discussions with the program
     manager found that no detailed reviews had been performed of budget
     submissions since the agreement was signed in 1984.
     Additional review noted that the trust fund agreement requires repayment to
     TVA through the use of a Federal Sinking Fund (FSF). Under terms of the
     agreement, if the partner agency earned a net income in any year, it was to
     place half of the net income into a FSF. We found no sinking fund has been
     established, and TVA has not been repaid the approximately $7 million.
      – Our review of the recent budget submission found the agency has made a net income
        in the past and been self-sufficient since 1983.
     In response to our finding, management provided a letter dated July 27, 2007,
     which showed that TVA formally raised the FSF issue as part of the partner
     agencies FY 2009 budget proposal. Specifically, TVA stated concern about the
     FSF and that it had not yet been established and was not found in the FY 2009
     budget proposal. TVA management does not expect this notice to have impact
     on the scheduled budget submission to the applicable state.

                                                                                        13
Finding 2 – Usage and Monitoring (continued)


    Trust Agreement 2 (continued)

    In response to our finding, management also stated:

       The entity has had use of funding sources other than the specific operating
        revenues applicable to the trust fund agreement. Funding from other sources
        total over $14.4 million. In addition to these funds, TVA invested over
        $7 million in the facility and infrastructure (creating a debt obligation). TVA
        management believes that the availability and use of these other funding
        sources could somewhat disguise when the entity exhibited a positive cash
        flow.
       The entity’s budget is submitted to the state for review and acceptance. While
        the contract provides that the other two signatories and TVA all have budget
        approval authority, they stated that there has never been, to TVA
        management’s knowledge, an occasion where the other two signatories have
        responded positively or negatively to the annual budget and had any
        recognizable impact on the actions of the entity’s Board and its submission of
        the annual budget to the state.
                                                                                    14
Finding 2 – Usage and Monitoring (continued)


     Trust Agreement 3
     This fund had not had any significant activity since 1995. However, the program manager
     indicated that the partner institution refused to allow TVA to take the remaining funds and
     move them to the John-Judy Educational Consortium fund. The partner institution indicated
     that they owned the funds while the agreement allows TVA to remove the funds from the
     trust at any time. TVA wanted to make these funds, about $135,000, available to the partner
     institution as well as other educational institutions within the Tennessee Valley through the
     John-Judy Educational Consortium fund. The program manager stated that TVA has not
     attempted to retrieve the funds since 2000.

     Trust Agreement 4
     This fund is administered by the Treasurer of the state of Tennessee. Under the agreement,
     TVA is to be provided with quarterly reports of fund usage as well as an annual report. Per
     the current program manager, she has not been provided with either report since taking her
     current position in February 2006.

     Additional Information
     In addition to reviews of specific supporting documentation, program managers reported that
     for two of the trusts the majority of the available funds had been spent on planning/
     engineering services, leaving insufficient funds for the completion of the project. It appears
     that the TVA review of the use of funds was limited to whether the expenditures complied
     with the agreement terms and not whether they facilitated the accomplishment of the trust
     objective.
                                                                                                15
Recommendations


    We recommend the Senior Vice Presidents of RO and OE&R:
     – Assess each trust fund and determine the appropriate strategic action
       for each fund (e.g., on-going administration or closure).
     – Determine the level of documented guidance needed by program
       managers in the administration of on-going trust funds.




                                                                               16
